APPENDIX A
(Opinion of Maryland Court of
Special Appeals)

E-FILED
Court of Special Appeals
Gregory Hilton
2/11/2021 9:33 AM

Circuit Court for Cecil County
Case No. C-07-CR-18-1360
UNREPORTED
IN THE COURT OF SPECIAL APPEALS
OF MARYLAND
No. 1192
September Term, 2019
______________________________________
DAVID EMMONS STONE
v.
STATE OF MARYLAND
______________________________________
Shaw Geter,
Gould,
Maloney,
(Specially Assigned),
JJ.
______________________________________
Opinion by Maloney., J.
______________________________________
Filed: February 11, 2021

*This is an unreported opinion, and it may not be cited in any paper, brief, motion, or other
document filed in this Court or any other Maryland Court as either precedent within the
rule of stare decisis or as persuasive authority. Md. Rule 1-104.

—UNREPORTED OPINION—

A jury empaneled in the Circuit Court for Cecil County, acquitted appellant,
David Stone, of second-degree burglary, malicious destruction of property, and theft,
based on a theory of unauthorized control. The jury was unable to reach a verdict
on a charge of fourth-degree burglary. The jury did convict appellant of one count
of theft of property valued between $25,000 - $100,000, predicated on a theory of a
continuing course of conduct. Later, the State entered a charge of fourth-degree
burglary nolle prosequi. The court sentenced appellant to eight years’ incarceration
and ordered him to pay restitution in the amount of $50,000.
Appellant filed a timely appeal and presents three questions for our
consideration which we shall reorder and rephrase slightly:
1) Did the Trial Court give an instruction on a lesser-included offense
when neither side requested it, in violation of Hagans?
2) Was the Appellant convicted of a “non-existent” charge?
3) Did Appellant’s trial counsel provide ineffective assistance of counsel?
Both parties assert, and we agree, that appellant’s convictions should be
reversed because the trial court allowed the jury to consider a lesser-included charge
of theft despite the fact that neither party made such a request. The court’s action
was contrary to the holding in Hagans v. State, 316 Md. 429 (1989), which
specifically prohibits the court from placing lesser included charges before the jury
absent a request from counsel. Consequently, we vacate appellant’s convictions and

—UNREPORTED OPINION—

remand for a new trial. Even though we remand, for the benefit of the trial court,
we hold that appellant was not convicted of a “non-existent” offense, but an actual
crime. Finally, we decline to address appellant’s ineffective assistance of counsel
claim on direct appeal.
FACTUAL BACKGROUND
Danilo Cabahug, a former owner of a sports memorabilia store, kept a large
supply of collectible sports cards and comic books at Whalen’s Storage in Elkton,
Maryland. He discovered that the memorabilia had been stolen on October 24, 2018
when he visited the storage facility for the first time since July 2018.1 His rental unit,
#16, had a large circular hole cut out from where the lock had been, which enabled
anyone to enter the unit.
Upon discovering the theft, Mr. Cabahug reported it to the Elkton Police
Department. Officer Andrew Tuer would later testify that while investigating the
break-in, he noticed that another unit, #35, was left open. Mr. Cabahug identified
some of the items in unit #35 as being his property.
Officer Tuer and Cabahug also looked into locker #15, which was an open
locker next to Cabahug’s and found more of his stolen property. Locker #15
belonged to appellant. Officer Tuer had been patrolling the unit weeks earlier on

1

He also reported tools, a watch and fentanyl patches had been stolen from the storage unit
but none of those items were listed in the indictment.

-2-

—UNREPORTED OPINION—

October 3, 2018, and found that locker, #15, had been “forced open.” Appellant met
the police at the storage facility and told Officer Tuer that he was abandoning the
locker because of the burglary. Later, on October 15, 2018, Officer Tuer was
patrolling another Elkton storage facility, Cecil Mini Storage, when he encountered
appellant with a cart of baseball cards “in booklets” as used by “collectors.”
On October 29, 2018, locker #9 at the Whalen facility was the subject of a
police search warrant. Cabahug identified several items found in the storage locker
as being his stolen property. This locker belonged to Miguel Small. Later that day,
the police executed a search warrant on the locker that appellant had rented at the
Cecil Mini Storage facility and Cabahug identified more items as being stolen from
his storage locker.
Officer Joshua Leffew interviewed appellant after executing the search
warrant on appellant’s locker. Appellant said he moved his items to the Cecil Mini
Storage because of the break-in at his Whalen locker. Appellant claimed that he saw
a box of baseball cards when moving his items out of the Whalen facility and took
them. Leffew asked Appellant to unlock his phone so he could look at it and
appellant refused, saying that he would “shoot himself in the foot” if he did so and
that he “didn’t want to incriminate himself.”
Appellant and Small were indicted for various counts of burglary, malicious
destruction of property and theft. At trial, the State called co-defendant Small as a
-3-

—UNREPORTED OPINION—

witness pursuant to a plea agreement. Small testified that he rented locker #9 at the
Whalen facility and that he did not know that the items found in his locker were
stolen. He had seen Cabahug’s locker left open for at least a month with many people
rummaging through it. He did not see appellant in that locker, but he did at one point
help appellant move 60 to 100 containers of baseball cards and comic books from
appellant’s locker at Whalen’s to a vehicle “in exchange for drugs.”
Cabahug testified that his property found in appellant’s possession was worth
“over $50,000” and that his total loss was “more than $1.5 million.” The evidence
showed that that he had previously told officers different amounts for his total loss:
$7,880 to the responding officer and later $250,000 to Officer Leffew.
Appellant testified that he had only rented his locker at Whalen’s for a month
in September 2018 before moving out because of it being burglarized repeatedly. He
denied stealing any of Cabahug’s property or burglarizing his locker. He further
testified that the baseball cards and comic books found in his Cecil Mini Storage
locker were all his and that he had collected those since he was a child. Neither
appellant nor Cabahug had receipts for any of the stolen items.
The jury was instructed to consider five charges in the indictment: SecondDegree Burglary, Fourth-Degree Burglary, Malicious Destruction of Property,
Felony Theft ($100,000 or more) and Theft in a Continuing Course of Conduct

-4-

—UNREPORTED OPINION—

($100,000 or more). On five counts of conspiracy to commit these same charges
with Miguel Small, appellant was granted a judgment of acquittal by the court.
The judge instructed the jury concerning the theft charges:
Then lastly there is a charge of theft, two different versions. The first
version or definition is theft, unauthorized control. The defendant, Mr.
Stone, is charged with the crime of theft. In order to convict the
defendant of theft, the State must prove that the defendant willfully or
knowingly obtained or exerted unauthorized control over the property
of the owner, and that the defendant had the purpose of depriving the
owner of the property, and the value of the property was over $100,000.
After the court instructed the jury on the definitions of “property,” “owner,”
“deprive,” “exert control,” and “value” from Maryland Pattern Jury Instruction 4:32,
it instructed the jury on a second theft charge:
Mr. Stone is also charged with the crime of theft greater than $100,000
pursuant to a continuing course of conduct. In order to convict the
defendant under this charge of theft pursuant to a continuing course of
conduct, the State must prove all the elements of theft. Course of
conduct means a persistent pattern composed of a series of acts over
time that shows a continuity of purpose.
Defense counsel objected to the instruction, insisting that the State had to pick
one or the other of the theft charges. The prosecutor disagreed, arguing that “it’s a
question of fact for the jury to determine if it was one act of theft or if it was pursuant
to a continuing course.” Defense counsel suggested in his closing argument that the
State had failed to prove that his client committed the theft but spent the bulk of his

-5-

—UNREPORTED OPINION—

argument insisting that “there is no indication whatsoever that this property was
worth over $100,000.”
During deliberations, the jury sent a note to the trial judge asking whether the
course of conduct count would “also include the element of value of $100,000?”
While both the State and defense counsel believed that the question should be
answered in the affirmative, the court disagreed, stating that “value is not an element
of the offense. The value only deals with the punishment.”2
In response to the jury’s question, the court answered, “No, see attached
verdict sheet for Question 5.” In response, defense counsel told the court, “Well, I
would note that both the State and the defense are objecting.” The new verdict sheet
sent to the jury in response to their question read in the pertinent part:3
How do you find with regard to Theft – unauthorized control?
Not Guilty __________

Guilty __________

2

The court was incorrect as a matter of constitutional law when it stated that value
is not an element of an offense but rather a sentencing consideration. The Supreme Court
of the United States interpreted a New Jersey hate crime statute that increased a sentence
if a trial judge, not the jury, found by a preponderance of the evidence that a defendant
committed a crime with the intent to intimidate a person or group based upon race. The
Court held that anything that raises the statutory maximum is an “element” of the offense,
and thus violates the Due Process Clause if the jury does not so find that it occurred beyond
a reasonable doubt. Apprendi v. New Jersey, 530 U.S. 466, 491 (2000); see also Counts v.
State, 444 Md. 52, 64 (2015) (citing Hagans v. State, 316 Md. 429 (1989) and Spitiznger
v. State, 340 Md. 114 (1995)) (explaining that the value of the property (or services) stolen
is an element of felony theft).
3

The unified theft statute, Md. Code Ann., Crim. Law section 7-104 (2002, 2012
Repl. Vol), divides theft into five different levels by the value of the amount stolen with
corresponding different levels of punishment.

-6-

—UNREPORTED OPINION—

If your answer to 4 is not guilty go to question 5. If your answer
to question 4 is guilty contact the bailiff.
5.

How do you find with regard to Theft?
Not Guilty __________

Guilty __________

If your verdict is guilty please also answer the following:
______ theft – having a value of at least $1,500 but less than
$25,000
______ theft – having a value of at least $25,000 but less than
$100,000
______ theft – having a value of $100,000 or more
The jury acquitted appellant of Second-Degree Burglary, Malicious
Destruction of Property and Theft- unauthorized control. The jury was unable to
reach a verdict on the Fourth-Degree Burglary and convicted appellant of the Theft
in a Continuing Course of Conduct ($25,000- $100,000). The State entered the
Fourth-Degree Burglary charge nolle prosequi. Appellant was sentenced to eight
years of incarceration and ordered to pay restitution in the amount of $50,000.
DISCUSSION
I.

The court erred in sending the jury the second verdict sheet,
which contained charges that were neither indicted nor requested
by either party.

Appellant’s first contention is that the trial court’s response to the jury’s note
indicating that the jury could consider thefts less than $100,000 violated Hagans.
Normally, a jury can be instructed on a charge that was not formally charged but is
-7-

—UNREPORTED OPINION—

a lesser-included charge of what was indicted. The Court of Appeals “has held,
consistent with ‘virtually every jurisdiction in the United States which has passed
upon the issue,’ that ‘a defendant, charged with a greater offense, can be convicted
of an uncharged lesser included offense.’” Skrivanek v. State, 356 Md. 270, 281
(1999) (quoting Hagans, 316 Md. at 447).4
There are some exceptions to this rule: 1) the lesser-included offense must not
be more serious in terms of the maximum penalty prescribed by the legislature; 2)
the statute of limitations must not have run for the lesser included offense; and 3)
the lesser included offense must be of the same nature as the greater offense. See
Williams v. State, 200 Md. App. 73 n.2 (2011) (citing Hagans, 316 Md. at 451-53));
see also Hook v. State, 315 Md. 25 (1989) (addressing the authority of the State to
enter nolle prosequi of a lesser-included offense to preclude that charge from
consideration by the jury).
Those exceptions do not apply to this appeal. Rather, another exception
explained in Hagans does. That is, whether the court may instruct a jury on a lesser-

4

To be considered a “lesser-included offense,” Maryland courts have applied the “required
evidence” or “elements test” where each charge is examined in the abstract. “All of the elements
of the lesser included offense must be included in the greater offense. Therefore, it must be
impossible to commit the greater without also having committed the lesser.” Hagans, 316 Md. at
449. This same test is used to determine whether two offenses should be deemed the same for
Double Jeopardy purposes. See Blockburger v. United States, 284 U.S. 299, 304 (1932).

-8-

—UNREPORTED OPINION—

included charge if neither the State nor the defense asks the court to do so. Hagans
clearly indicates that it may not:
[T]he trial court ordinarily should not give a jury an instruction on an
uncharged lesser included offense where neither side requests or
affirmatively agrees to such instruction. It is a matter of prosecution and
defense strategy which is best left to the parties. There is no requirement
that the jury pass on each possible offense the defendant could have
committed. We permit, for example, the State to nolle prosequi an
offense, and we allow plea bargains. When counsel for both sides
consider it to be in the best interests of their clients not to have an
instruction, the court should not override their judgment and
instruct on the lesser included offense.
Hagans, 316 Md. at 455 (emphasis added).
The reasoning for this rule is that it allows both sides to attempt to get the jury
to come to a “desired result when it has an ‘all or nothing’ choice.” Smith v. State,
412 Md. 150, 170 (2009) (citing Hagans, 316 Md. at 454–55). The State concedes
that this case should be remanded for a new trial because the requirements of Hagans
were not followed when the court sent the jury the second verdict sheet with potential
findings of theft less than $100,000, since those charges were neither indicted nor
requested by a party. We agree.
But that does not end our inquiry. Appellant claims that the matter should not
merely be reversed, but dismissed based upon two related errors: 1) the sole count
that he was convicted of is not a criminal offense, and 2) trial counsel was so
deficient for not moving for a judgment of acquittal on the non-existing crime that

-9-

—UNREPORTED OPINION—

this court should find ineffective assistance of counsel, thus preserving that issue for
this court.
II.

The Appellant Was Not Convicted of a Non-Existing Charge.

Appellant and the State appear to agree that Maryland Code Ann. Crim. Law
Article (“CL”) section 7-103(f) allows the State to aggregate the value of thefts that
occur over a period of time to determine the value of the theft if they are committed
as part of a common scheme or continuing course of conduct. That seems rather
obvious from the plain language of the statute.5
Where the parties differ is that appellant asserts that he should not have been
charged6 or convicted of a theft with language alleging a “continuing course of
conduct” from CL section 7-103(f), since this statue does not create a new
substantive offense. Appellant readily concedes that the issue was not objected to at
trial but urges this court to address the matter either 1) because it is a challenge to

5

CL section 7-103(f) provides:

When theft is committed in violation of this part under one scheme or continuing course
of conduct, whether from the same or several sources:
(1) the conduct may be considered as one crime; and
(2) the value of the property or services may be aggregated in determining whether the
theft is a felony or a misdemeanor.
6

Any objection to the indictment is not before us because there was not a timely objection.
See Md. R. 2-252(A)(2).

-10-

—UNREPORTED OPINION—

this court’s subject matter jurisdiction that can be raised at any time, or 2) as plain
error.
Without conceding or addressing the waiver issue, this Court holds that
appellant was not convicted of a non-existent crime. His indictment read as follows:
INDICTMENT
THE GRAND JURY, for the State of Maryland, sitting in Cecil
County, upon its oath and affirmation, charges DAVID EMMONS
STONE, Defendant with having committed the following offenses and
incorporates by reference the following allegations, information, and
particulars in the counts below as therein referred:
DATE: On or about August 1, 2018 through October 24, 2018
LOCATION: Whalens Storage Unit #16, 201 W. Main Street,
Elkton, Cecil Co., MD
VICTIM: Danilo Cabahug
PROPERTY DAMAGED: Lock
PROPERTY STOLEN: Various Sports Collectibles and Comic
Books
NINTH COUNT7
THE GRAND JURY on its oath and affirmation also charges that
the aforesaid Defendant, on or about the aforesaid date, at the aforesaid
location, in the aforesaid County, did, between the dates of August 1,
2018 and October 24, 2018, pursuant to one scheme and continuing

7

Cecil County apparently lists the date, location, name of victim, and property damaged
and stolen at the beginning of the indictment for reference by each count.

-11-

—UNREPORTED OPINION—

course of conduct, steal the aforesaid property of the aforesaid Victim
having a value of One Hundred Thousand ($100,000) or more.
CL 7-104; CJIS 1-1303 (Theft Scheme: $100,000 Plus) (emphasis
added).
The indictment tracks almost exactly with the short form indictment
proscribed by the legislature in CL section 7-108:
An indictment, information, warrant, or other charging document
for theft under this part, other than for taking a motor vehicle under §
7-105 of this part, is sufficient if it substantially states:
“(name of defendant) on (date) in (county) stole (property or services
stolen) of (name of victim), having a value of (less than $1,500, at least
$1,500 but less than $25,000, at least $25,000 but less than $100,000,
or $100,000 or more) in violation of § 7-104 of the Criminal Law
Article, against the peace, government, and dignity of the State.”
Appellant’s contention is that the indictment somehow is defective if the State
clarifies the allegations by stating “pursuant to one scheme and continuing course of
conduct.” He cites no authority for his proposition and this court could find none.
In fact, there is authority that such language must be added in some circumstances.
See State v. Hunt, 49 Md. App. 355, 361(1981).
Regardless, appellant’s argument was not about the charging document per
se, but about actually being convicted of a non-existent crime. In short, he was
convicted of theft pursuant to CL section 7-104. The fact that he was informed in the
indictment and the jury was instructed that the theft was pursuant to a continuing

-12-

—UNREPORTED OPINION—

course of conduct is permitted under CL section 7-103(f). This does not detract from
his theft conviction.
Appellant also argues in his reply brief that his conviction violates the Double
Jeopardy Clause of the Fifth Amendment of the United States Constitution and
Maryland common law because he was found not guilty of theft (unauthorized
control) while being found guilty of theft (continuing course of conduct). His
argument is that since it is the taking of the same property in each count and also
charged pursuant to the same consolidated theft statute, the not guilty verdict in the
former bars conviction in the latter.
This issue is not before us. Appellant did not plead this issue in his initial brief.
“We have long and consistently held to the view that ‘if a point germane to the appeal
is not adequately raised in a party's brief, the court may, and ordinarily should,
decline to address it.’” Oak Crest Vill., Inc. v. Sherwood Murphy, 379 Md. 229, 241
(2004) (quoting DiPino v. Davis, 354 Md. 18, 56 (1999); see also Md. R. 8–
504(a)(5). Appellant does mention Double Jeopardy in passing at the conclusion of
his initial argument. He states that the trial court erred in correcting the verdict sheet
to include lesser-included amounts in violation of Hagans. The precise issue raised
by appellant in the second claim in his brief is the following:

-13-

—UNREPORTED OPINION—

II. The Trial Court Erred in Submitting LesserIncluded Offenses8 to the Jury Over the Objections of
the State and the Defense
Somehow, appellant tries to convert the above claim into a Double Jeopardy
issue for this court to address. It is only after the State concedes on the Hagans
argument in its answer does appellant make Double Jeopardy the full thrust of his
argument in his reply brief. It does not alter the law that the State did respond in their
brief to appellant’s passing mention of the Double Jeopardy issue, although surely
not how they would have desired if they saw the full contours of appellant’s
argument that came in his reply.

“An appellant is required to articulate and

adequately argue all issues the appellant desires the appellate court to consider in the
appellant's initial brief. It is impermissible to hold back the main force of an
argument to a reply brief and thereby diminish the opportunity of the appellee to
respond to it.” Oak Crest Vill. 379 Md. at 241–42. And one of the State’s responses
correctly points out that this issue was also not objected to by trial counsel.
(Appellee’s brief, p. 34-35.) Therefore, this argument would not have prevailed even
if it had been preserved.

8

As previously addressed, the lesser-included offenses referred to here are the different
valuations of the theft charges, not the substantive charges as appellant addresses in Double
Jeopardy claim.

-14-

—UNREPORTED OPINION—

Appellant was put in jeopardy of two charges that were, as he says, different
“species” of the consolidated theft statute. (Reply brief, p. 5). Appellant, however,
fails to cite any authority for his proposition that being found not guilty of one aspect
of a consolidated statute precludes a guilty finding of every other aspect of the
consolidated statute.
Our review of Maryland case law would suggest just the opposite. The theft
statute brought together numerous larceny related offenses into a singular statute.
By chapter 849 of the Acts of 1978, codified as 340–344 of Art. 27, the
General Assembly of Maryland, effective July 1, 1979, consolidated a
number of theft-related offenses (not involving force or coercion) into
a single newly created statutory offense known as theft. Section 341
specifies that “[c]onduct designated as theft” under the Act’s provisions
“constitutes a single crime embracing, among others, the separate
crimes heretofore known as larceny, larceny by trick, larceny after trust,
embezzlement, false pretenses, shoplifting, and receiving stolen
property.” Section 342 enumerates five different types of criminal
conduct as constituting theft under the statute, i.e., (a) obtaining or
exerting unauthorized control; (b) obtaining control by deception; (c)
possession of stolen property; (d) obtaining control of lost, mislaid or
mistakenly delivered property; and (e) obtaining services by deception.
Jones v. State, 303 Md. 323, 326–27 (1985).
The crime of theft is codified currently at CL section 7–101 et seq. The
purpose of bringing the various larceny crimes together in a single statute was “to
eliminate these technical and absurd distinctions that have plagued the larceny
related offenses and produced a plethora of special provisions in the criminal law
-15-

—UNREPORTED OPINION—

[because] an “unintelligible body of statutory and case law” that had “crept into the
statutory and common law of larceny over the centuries.” State v. White, 348 Md.
179, 195-6 (1997) (quoting Joint Subcommittee on Theft Related Offenses, Revision
of Maryland Theft Laws and Bad Check Laws at 2 (Oct. 1978)).
The consolidation was not designed to change the substantive law of the
various crimes brought together under the singular umbrella of the theft statute. Id.
It is one crime defined in a multitude of ways. Rice v. State, 311 Md. 116, 136 (1987).
Thus, it does not create a Double Jeopardy situation if the jury accepts one version
of the statute and rejects another.
The fact that we are comparing one aspect of the statute and the continuing
course of conduct form of theft pursuant to CL section 7-103(f) does not change the
analysis. The jury still had different elements to decide with the two charges. Both
sides argued the different aspects of the two charges: whether the property was stolen
on one isolated instance or at different times pursuant to a common scheme. It was
an either-or proposition since objects cannot be stolen on a lone, singular occasion
and also as a continuing course of conduct. The jury had to pick one version
unanimously.
This manner of proceeding worked to appellant’s favor since normally the
jury does not have to agree upon a version of a crime that has different manners of
establishing proof. See Rice, 311 Md. 116 (noting that the theft statute was construed
-16-

—UNREPORTED OPINION—

as not requiring jury unanimity as to which version); see also Kouadio v. State, 235
Md. App. 621, 632–33 (2018) (holding that as long as all jurors find all of the
elements of any one of the alternative manners that can prove second-degree murder
beyond a reasonable doubt, then a guilty verdict will stand, but this is
“notwithstanding that some jurors may have found an intent to kill while others
found an intent to commit grievous bodily harm or the elements of depraved heart
murder”).
The fact that the jury, if they were to be unanimous at all, would by necessity
have to reject one of the two theories does not create a Double Jeopardy9 situation.
III.

Appellant Did Not Receive Ineffective Assistance of Counsel.

Appellant asks us to find that trial counsel was ineffective. We decline to do
so.
As the Court of Appeals and this Court have repeatedly held, direct appeals
are rarely the appropriate venue to determine ineffective assistance of counsel
claims. “Post-conviction proceedings are preferred with respect to ineffective
assistance of counsel claims because the trial record rarely reveals why counsel acted
or omitted to act, and such proceedings allow for fact-finding and the introduction

9

The State also argues that appellant has not yet been put in Jeopardy a second time, thus
this issue is not ripe. Having rejected the Double Jeopardy contention, we need not address this
argument.

-17-

—UNREPORTED OPINION—

of testimony and evidence directly related to allegations of the counsel’s
ineffectiveness.” Mosley v. State, 378 Md. 548, 560 (2003).
In Mosley, this court determined that “the adversarial process found in a postconviction proceeding generally is the preferable method” when evaluating an
ineffective assistance of counsel claim. Id. at 562. This court also acknowledged that
there are limited circumstances in which this court will review a claim on direct
review. Id. at 567 (“We have been willing, thus, to consider these claims on direct
review only when the facts found in the trial record are sufficiently developed to
clearly reveal ineffective assistance of counsel and that counsel's performance
adversely prejudiced the defendant.”).
For the reasons stated, by not objecting as appellant thinks his trial attorney
should have, appellant avoided the situation that would allow the jury to be able to
split on which theory applies and still convict him. That is but one reason that this is
not the “exceptional” case where post-conviction review would be appropriate
because of a “blatant and egregious” performance by trial counsel. Id. at 562.
JUDGMENTS OF THE CIRCUIT COURT
FOR CECIL COUNTY IS REVERSED;
CASE REMANDED FOR FURTHER
PROCEEDINGS CONSISTENT WITH
THIS OPINION. COSTS TO BE PAID BY
CECIL COUNTY.

-18-

APPENDIX B
(Order of Maryland Court of
Appeals Denying Certiorari)

E-FILED
Court of Appeals
Suzanne C. Johnson,
Clerk of Court
3/1/2021 2:51 PM

DAVID EMMONS STONE

*

IN THE

*

COURT OF APPEALS

*

OF MARYLAND

*

Petition Docket No. 478
September Term, 2020

v.
*
*
*
STATE OF MARYLAND

(No. 1192, Sept. Term, 2019
Court of Special Appeals)
(No. C-07-CR-18-001360, Circuit
Court for Cecil County)

ORDER
Upon consideration of the petition for a writ of certiorari to the Court of
Special Appeals, the Motion to Stay Issuance of Court of Special Appeals' Mandate, and the
answers filed thereto, in the above-captioned case, it is this 1st day of March, 2021

ORDERED, by the Court of Appeals of Maryland, that the petition be, and it
is hereby, DENIED as there has been no showing that review by certiorari is desirable and
in the public interest; and it is further

ORDERED, that the Motion to Stay Issuance of Court of Special Appeals'
Mandate be, and it is hereby, DENIED AS MOOT.

/s/ Mary Ellen Barbera
Chief Judge

